HHS/OIG-Audit--"Review of Medicare Managed Care Payments for Beneficiaries with Institutional Status, (A-05-98-00046)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Managed Care Payments for Beneficiaries With Institutional
Status," (A-05-98-00046)
April 19, 1999
Complete Text of Report is available in PDF format
(2.71 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare pays health maintenance organizations (HMOs) a higher capitation rate
for beneficiaries who are institutionalized. This final report points out that
HMOs received Medicare overpayments estimated at $22.2 million for beneficiaries
incorrectly classified as institutionalized. The overpayments resulted from
inadequate HMO internal controls in two areas: 1) verification of beneficiaries'
institutional status, and 2) reporting of institutional beneficiaries to HCFA.
We recommended that HCFA strengthen its on-site review procedures to better
identify HMOs that are unable to accurately verify and report the institutional
status of enrolled beneficiaries. We also recommended that HCFA take action
to recover Medicare overpayments which we estimate to total approximately $22.2
million. The HCFA officials concurred with our findings and recommendations.